                           United States
                           Department of Energy
                           Office of Inspector General



         DOE/IG-0022
                           Semiannual
                           Report to
                           Congress
                           October 1, 2000
                           to March 31, 2001


    Inspector General’s
               Message
                Page 1


     Inspector General
    Testifies on Top 10
Management Challenges
                Page 1


Management Challenges
       and Significant
     Accomplishments
                Page 3


               Reports
               Page 31


        Statistical Data
               Page 35




                           April 2001
Did You Know?

“The Department of Energy has installed two
low-sulfur light bulbs as a test at its Forrestal
building headquarters in Washington, D.C.”
(See front cover)


Source: National Energy Policy, Report of
the National Energy Policy Group, May 2001.
                                 Department of Energy
                                      Washington, DC 20585

                                        April 30, 2001



The Honorable Spencer Abraham
Secretary
U.S. Department of Energy
Washington, D.C. 20585

Dear Secretary Abraham:

I am pleased to submit the Office of Inspector General’s (OIG) Semiannual Report to Congress.
The Report summarizes significant OIG activities and accomplishments during the 6-month
period ending March 31, 2001. The Inspector General Act, as amended, requires you to forward
the Report to the appropriate congressional oversight committees within 30 days of your receipt
of this Report.

This Report reflects our continuing commitment to focus OIG efforts on the issues and concerns
most critical to the Administration, the Department, and the Congress. In particular, it describes
OIG accomplishments in identifying the most significant management challenges facing the
Department.

We look forward to working with you on matters of mutual interest.

                                            Sincerely,




                                            Gregory H. Friedman
                                            Inspector General

Enclosure




                                                                                                     43
                          At Your Service
Table of Contents




                    THE INSPECTOR GENERAL'S           1
                    MESSAGE


                    MANAGEMENT CHALLENGES             3
                    AND SIGNIFICANT ACCOMPLISHMENTS


                    OTHER SIGNIFICANT                 23
                    ACCOMPLISHMENTS


                    REPORTS ISSUED                    31



                    STATISTICS                        35
                                                                          At Your Service
Inspector General's Message



                                                               W            e are pleased to provide our Semiannual Report
                                                              to the new Secretary of the Department of Energy
                                                              (Department) and his staff, as well as the new Congress. The
                                                              Report summarizes significant Office of Inspector General
                                                              (OIG) audit, investigation, and inspection activities and
                                                              accomplishments during the reporting period, October 1, 2000,
                                                              to March 31, 2001. We devoted a significant portion of our
                                                              resources to continue improving the effectiveness and
                                                              efficiency of the Department's programs and operations.


                                                              Management Challenges Facing the
                                                              Department

                              Gregory H. Friedman             Since 1997, our Office has provided the Secretary and
                               Inspector General              Congress with an annual assessment of the most serious
                                                              management challenges facing the Department. During this
                                                              period, we identified those Department challenges, including
                                                              challenges facing the National Nuclear Security
                                                              Administration (NNSA) that, in our view, warrant increased
                                                              attention or appear to have reached a higher level of urgency.
                                                              On March 15, 2001, I testified before the House Committee on
                                                              Government Reform, Subcommittee on National Security,
                                                              Veterans' Affairs, and International Relations, about these
                                                              major challenges confronting the Department.




                              Additional information on the OIG, including the full text of its public reports and Department
                              management’s comments, can be found on the OIG website – www.ig.doe.gov.                          1
                      At Your Service

              We determined that the most serious challenges facing the
              Department today can be categorized as follows:

                 •Effective Establishment of the NNSA;
                 •Contract Administration;
                 •Energy Supply/Demand Technology;
                 •Environmental Remediation (including radioactive
                  waste storage);
                 •Human Capital;
                 •Information Technology;
                 •Infrastructure;
                 •Property Controls and Asset Inventories;
                 •Safety and Health; and
    economy

                 •Security

              We believe that, with aggressive management action, the
              information technology, infrastructure, and security
              challenges can be solved within a short period of time.
              However, the environmental cleanup, safety and health, and
              contract administration challenges will require long-term
              Department efforts.

              To its credit, the Department, through strategic planning,
              goal-setting, and management commitment, has taken a
              number of positive actions to address previously reported
              challenges. Further progress in resolving these challenges
              will be impacted by the Department’s effective
              implementation of the Government Performance and Results
              Act. Specifically, the Department should ensure that it has
              developed and implemented performance goals and measures
              that directly address each of the management challenges.

              The Reports Consolidation Act of 2000 requires the
              Inspectors General to annually submit to the agency a
              statement summarizing the most serious management and
              performance challenges facing the Department and assessing
              its progress in addressing those challenges. We believe this
              requirement will assist the Department in focusing on
              improving those areas of most critical importance.




2
                                                                               At Your Service



                                                                     T
and Significant Accomplishments
        Management Challenges


                                                                                he chairmen of several committees of the U.S.
                                                                     Congress requested the OIG to assess the most significant
                                                                     management challenges facing the Department. In response,
                                                                     the OIG initiated an analysis and issued a special report that
                                                                     focused on those areas that warranted increased emphasis or
                                                                     appeared to have reached a heightened level of urgency. (A
                                                                     listing of the management challenges is included in the
                                   Did you know?                     "Inspector General's Message" at the beginning of this
                                                                     document.)
                                   Management Challenge -
                                   Energy Supply/Demand              The Department has taken a number of positive actions to
                                   Technology :                      address some of its long-standing problems, including several
                                   1.    World oil demand is
                                                                     that were reported by the OIG as management challenges in
                                         projected to increase       prior OIG reports. Examples include: integrating research
                                         from 75.5 million           and development activities, commencing operations at the
                                         barrels per day in          Waste Isolation Pilot Plant, and enhancing project
                                         1999 to 117.4 million
                                         barrels per day in
                                                                     management. Additionally, the Department has expressed its
                                         2020.                       commitment to designing and implementing performance
                                                                     goals and measures directly addressing each management
                                   2.   The most rapid               challenge. (IG-0491)
                                        increases in energy are
                                        expected for
                                        computers, office
                                                                     The following are examples of OIG accomplishments in the
                                        equipment,                   management challenge areas for which final reports were
                                        telecommunications,          issued during the reporting period.
                                        and other equipment.

                                   Source: Annual Energy             • Effective Establishment of the NNSA
                                   Outlook 2001 (AEO2001)
                                                                      The NNSA was established in March 2000 pursuant to Title
                                                                      32 of the National Defense Authorization Act for Fiscal Year
                                                                      (FY) 2000 (Public Law 106-65). NNSA's mission is to
                                                                      provide clear and direct lines of accountability and
                                                                      responsibility for the management and operation of the
                                                                      nation’s nuclear weapons, naval reactors, and nuclear
                                                                      nonproliferation activities. As with the establishment of any
                                                                      new Government enterprise, especially one with such a
                                                                      significant mission, the NNSA faces a number of challenges
                                                                      associated with its creation. In order to expand our reviews
                                                                      of NNSA operations, the OIG reorganized and established
                                                                      key management positions devoted to NNSA operations. In
                                                                      addition, the following are some of the NNSA-related
                                                                      reviews the OIG completed:


                                  Additional information on the OIG, including the full text of its public reports and Department
                                  management’s comments, can be found on the OIG website – www.ig.doe.gov.                          3
                                                At Your Service

                                         Security Incident at Los Alamos National Laboratory

                                         The OIG conducted an inspection of a security incident
                                         involving a power failure at the Los Alamos National
                                         Laboratory's (LANL) Technical Area 18 (TA-18) that
                                         prevented a vault containing a reactor from locking properly.
                                         This review found no evidence of any loss, compromise, or
                                         unauthorized disclosure of classified information or material.
                                         The OIG did find weaknesses, however, in LANL's
                                         operating instructions and security procedures relating to the
                                         locking of the vault.

                                         LANL did not have procedures in place describing how to
                                         manually lock the vault in the event of a power failure.
                                         Furthermore, the actual procedures used by the Protective
                                         Force personnel for exiting the facility where the vault is
                                         located were not consistent with their "POST ORDERS." In
                                         addition, TA-18 did not have a program of scheduled
                                         inspections or preventive maintenance to ensure proper
                                         operation of the vault's locking device. It was also
Technical Area-18, Los Alamos National
                                         determined that, although the incident was reported in a
Laboratory
                                         timely manner to appropriate personnel, discrepancies
                                         existed in the various reports filed on the incident.

                                         The OIG recommended a series of actions to address the
                                         weaknesses identified in LANL's operating and security
                                         procedures. Department management agreed with the OIG
                                         recommendations, and LANL has written new procedures
                                         that address vault operations during a power failure.
                                          (INS-L-01-02)

                                         Aspects of the Department's Classified Document
                                         Transmittal Process Need Improvement

                                         The OIG initiated a review of the Department's classified
                                         document transmittal process to determine whether
                                         Department officials and contractors were following proper
                                         safeguard and security procedures when transmitting
                                         classified documents outside the Department. Analysis of a
                                         Calendar Year 1999 sampling of classified transmittals at




4
                                                      At Your Service

                                               three Department laboratories determined that the
                                               laboratories had not always adhered to safeguard and
                                               security transmittal procedures.

                                               Safeguard procedures mandate that all transmissions outside
                                               the Department must be addressed to approved classified
                                               addresses as verified through the Department's approved
                                               recipient database. The laboratories in question, on
                                               occasion, had transmitted classified documents to addresses
                                               that were not included in the database. On May 12, 2000,
                                               the OIG issued a management alert bringing this matter to
                                               the attention of the Department's Office of Security Affairs
                                               (OSA). On July 6, 2000, the Director of the Office of
                                               Security and Emergency Operations issued a response to the
                                               OIG concluding that although Department policy had been
                                               violated, no compromise of classified information had
                                               occurred.

                                               The OIG recommended a series of corrective actions to
                                               improve the Department's classified document transmittal
                                               process. The Department concurred with these
                                               recommendations. (IG-0488)

                                               Lack of Operating Funds for Atlas Pulsed Power
                                               Experimental Facility

                                               The Atlas Pulsed Power Experimental Facility (Atlas) was
                                               proposed as part of the Stockpile Stewardship Program to
                                               validate certain elements of nuclear weapons computer
                                               codes. The facility was completed in August 2000, at a total
                                               cost of $49 million. An OIG audit found that although the
                                               Office of Defense Programs (DP) validated the need for
                                               Atlas and authorized construction, DP did not have the funds
                                               to operate the facility. DP had estimated operating costs
                                               when construction was authorized; however, it failed to
                                               assign the facility a priority high enough to ensure funding.
The Atlas Pulsed Power Experimental Facility
                                               Subsequent to the issuance of the OIG draft report, DP
                                               acquired funding to dismantle, move and reassemble Atlas at
                                               the Nevada Test Site (NTS). As of the date of the OIG
                                               report, the Department had not secured the funding needed
                                               to operate Atlas after it is reassembled.




                                                                                                        5
                                            At Your Service

                                   The OIG made recommendations to ensure that: (1) a formal
                                   prioritization process is established; (2) projects have
                                   operating funds identified and requested prior to construction;
                                   and (3) management notifies Congress if any changes are
                                   made to the Atlas operation plan once Atlas is moved to the
                                   NTS. Department management did not agree with the OIG's
                                   recommendations. Specifically, management stated that it
                                   had a good prioritizing process in DP. Management did
                                   agree, however, to identify and request operating funds prior
                                   to construction and to notify Congress of any changes in plans
                                   to operate Atlas. (IG-0495)

                                   • Contract Administration
    Did you know?
                                   In its FY 1999 Accountability Report, the Department
    In the first 6 months of FY
                                   reported that it had reformed its contracting practices. The
    2001, the Department
    expended over $13 billion on
                                   reported reforms included: aggressively recompeting
    procurement of goods and       contracts; tying performance metrics to contractor fees to
    services.                      provide incentives for improved performance; and shifting
    Source: Department of
                                   risk to contractors in exchange for the opportunity to earn
    Energy Procurement and         higher fee amounts. Based on observations and reviews
    Assistance Data System         conducted since 1994, the OIG concluded that many of the
    (PADS) as of March 31,         Department’s contract reform goals have yet to be achieved.
    2001.
                                   OIG reviews have disclosed continuing problems associated
                                   with performance-based incentives and fees at major
                                   Department contractor locations. During this reporting
                                   period, the OIG also disclosed instances where certain
                                   contracting practices did not appear to be in the Government's
                                   best interest. For example:

                                   Savannah River Site Contractor Reimburses Unallowable
                                   Costs

                                   The OIG conducted an investigation which substantiated
                                   irregularities with costs claimed by a contractor under a
                                   Cooperative Agreement (Agreement) with the Department's
                                   Savannah River Operations Office (SRO). Specifically, the
                                   investigation revealed that the contractor did not follow its
                                   own procurement procedures when granting a major
                                   subcontract under the Agreement. The OIG recommended
                                   that management consider issuing a "Notice of Intent to
                                   Disallow" approximately $718,000 in costs improperly




6
                      At Your Service

             claimed by the SRO contractor. Management concurred with
             the OIG recommendation. The Department received $720,000
             from the contractor in final settlement of disputed costs
             claimed under the Agreement. (I97SR010)

             Department Strategy to Subcontract Work and Reduce Staff
             Not Achieved

             The Department's Oak Ridge Operations Office (ORO)
             entered into a $2.5 billion management and integration
             contract with Bechtel Jacobs Company LLC (Bechtel) for
             environmental remediation activities at sites located in Oak
             Ridge, Tennessee; Portsmouth, Ohio; and Paducah, Kentucky.
efficiency
             The primary objective of the contract was to accelerate
             cleanup activities and maximize cost effectiveness. To this
             end, the Department chose a strategy in which the contractor
             was to rely on competitively awarded, fixed-price subcontracts
             for much of the work. In its proposal, Bechtel committed to
             subcontracting just over 90 percent of the work and to reduce
             staffing by about 80 percent, through transitioning staff to
             subcontracts, within 2 years of the contract award. These
             factors were, in large part, the basis of the award to Bechtel.

             The OIG conducted an audit to determine whether Bechtel was
             meeting these commitments. The audit found that Bechtel did
             not use competitive, fixed-price subcontracts or reduce staffing
             to the extent proposed during the award selection process. It
             was also disclosed that the ORO had not incorporated these
             factors in the Bechtel contract, thereby limiting the
             Department's ability to hold the contractor accountable for
             achieving these goals. In addition, the OIG concluded that the
             Department could have saved an additional $44.1 million in
             FY 2000 had Bechtel met the initial terms of its proposal.

             The OIG recommended that the Manager, ORO, take actions
             to strengthen the selection process for awarding future
             contracts and direct Bechtel to review its planned work to
             identify any additional opportunities for subcontracting and to
             analyze core staffing levels and reduce staffing in areas where
             additional workforce transitioning could be employed.
             Department management agreed with the OIG
             recommendations, but disagreed with the audit conclusions
             stating that the audit did not take into consideration the fact




                                                                         7
                                                     At Your Service

                                           that the contract was "one of a kind," that Department policy
                                           impacted on the contractor’s ability to meet its subcontracting
                                           goals, and that the audit should have focused on compliance
                                           with the actual contract and not statements made during source
                                           selection. (IG-0498)

                                           • Environmental Remediation (including
                                             radioactive waste storage)

                                           The Department's effort to address the environmental
           Did you know?                   consequences of its nuclear weapons mission has been
                                           recognized as the largest remediation program of its kind ever
           At the beginning of FY          undertaken. The Department reports that it is responsible for
           2000, the Department
           reported it had finished
                                           cleaning up 113 geographic sites located in 30 States and one
           cleanup at 69 of the 113        territory. Sites range in size from as small as a football field to
           sites for which it is           larger than the State of Rhode Island. Cleaning up the entire
           responsible.                    nuclear weapons legacy will take several decades and,
                                           according to the Department's most recent estimate, cost about
           Source: Department of
           Energy Strategic Plan,          $230 billion. The magnitude of the cleanup effort, along with
           September 2000                  its technical complexities and uncertainties, ensure that it will
                                           remain a Department challenge for the foreseeable future.

                                           The Department has made progress in defining the cleanup
                                           effort, estimating its scope, and prioritizing individual projects.
                                           However, OIG reviews during this reporting period illustrate
                                           several examples of the need for increased management
                                           attention to achieving intended environmental cleanup
                                           outcomes.

                                           Department Will Not Meet Completion Commitment for
                                           Stabilization of F-Canyon Americium/Curium Solution

                                           In May 1994, the Defense Nuclear Facilities Safety Board
                                           (DNFSB) required the Department to formulate a plan to
                                           stabilize the highly radioactive Americium/Curium (AM/CM)
                                           solution stored at Savannah River's F-Canyon Facility.
                                           Initially, the Department committed to stabilizing the solution
                                           by September 1998. Thereafter the Department's
                                           implementation plan was revised and the completion date was
                                           set back until September 2002. This revised commitment was
Aerial View of Savannah River's F-Canyon   accepted by the DNFSB; however, the DNFSB noted that it
Facility                                   would continue to monitor the Department's effort due to the
                                           potentially significant health and safety risks associated with



 8
                        At Your Service

                the storage of such a highly radioactive solution. In January
                2000, the DNFSB issued Recommendation 2000-1, reiterating
                the urgency of completing the AM/CM stabilization.

                The OIG conducted an audit to determine whether the
                Department would meet its commitment to stabilize the AM/
                CM solution by September 2002. The OIG concluded that
                the Department would not meet its commitment to stabilize
                the AM/CM by September 2002. The Department submitted
                a revised commitment date of December 2005 to the DNFSB
effectiveness
                in June 2000. However, stabilization is not likely to be
                completed until after 2005. The Department committed itself
                to stabilization dates before knowing the dates were
                achievable. Furthermore, the Department did not establish
                separate funds for the vitrification project. Delaying the
                stabilization of AM/CM will prolong the safety risks
                associated with the solution, escalate the cost of the
                vitrification project, and hinder the decommissioning of the
                F-Canyon Facility.

                The OIG recommended that the Manager, SRO: (1)
                reevaluate the proposed December 2005 commitment date;
                (2) submit a revised project completion date to the Office of
                the Deputy Assistant Secretary for Project Completion,
                Office of Environmental Management, that is based on an
                achievable baseline; (3) establish the AM/CM Vitrification
                Project as a line item project to ensure that it will receive
                dedicated funding; and (4) avoid submitting estimated
                completion dates on future projects until a project plan has
                been thoroughly developed. Management agreed with
                recommendations 1, 2, and 4. Management did not,
                however, agree with recommendation 3. (IG-0489)

                Unnecessary Duplication of Atmospheric Prediction and
                Mapping Activities

                 The Department obtains predictions and maps of hazardous
                 materials atmospheric dispersions from the National Oceanic
                 and Atmospheric Administration (NOAA), its internal
                Atmospheric Release and Advisory Capability (ARAC), and
                locally developed in-house services. The OIG conducted an
                 audit to determine if there was duplication of atmospheric
                 prediction and mapping capabilities at the Department.




                                                                           9
                                                    At Your Service

                                           The Department was capable of providing the prediction and
                                           mapping services to the 18 Department sites; however, these
                                           sites had either acquired their own capabilities or had
                                           contracted with NOAA for the services. This resulted in
                                           unnecessary duplication of atmospheric prediction and
                                           mapping capabilities for hazardous materials dispersions at
                                           the Department. Also, ARAC was duplicating services for
                                           external events that NOAA was capable of providing. For
                                           example, both NOAA and ARAC predicted and mapped
                                           potential terrorist releases of chemical and biological agents.
                                           However, a Federal plan assigned responsibility for such
                                           services to NOAA, rather than the Department. The OIG
                                           estimated that the Department could save between $1.56
                                           million and $6.18 million per year if duplication was
                                           eliminated.

                                           The OIG recommended that the Office of Emergency
                                           Response: (1) define the internal needs for predictions and
                                           maps; (2) select and implement the most cost-effective
                                           approach to eliminate internal duplication; and (3) cease
                                           providing prediction and mapping services to other entities.
                                           Management agreed with the first recommendation and stated
                                           that a draft policy to define internal needs and requirements
                                           for predictions and maps had been developed. Management
                                           disagreed with the remaining recommendations.
                                           (WR-B-01-02)

                                           • Information Technology

                                            Recent passage of the Government Information Security
                                           Reform Act (P.L.106-398, subtitle G), with its requirement
                                           for an annual independent evaluation of the Department’s
                                           information security activities by the OIG, represents a
                                           significant additional challenge and a major demand on OIG
                                           resources. The OIG is developing a comprehensive strategy
                                           for meeting this new requirement in a manner that fully
                                           leverages in-house capabilities, contractor resources, and the
                                           expertise of other information technology groups within the
                                           Department. The OIG's Technology Crimes Section (TCS)
OIG Technology Crimes Computer Forensics
Laboratory
                                           and Technology Audit Group, both formed in 1999, are
                                           working together to coordinate this effort. Recent
                                           information technology reviews include the following:




10
                  At Your Service

          Joint Investigation Leads to Arrest and Confession of
          Computer Hacker

          The OIG TCS was involved in the execution of a search
          warrant for computer-related storage media. The warrant was
          issued during the course of a joint investigation by OIG TCS
          agents with Special Agents from the National Aeronautics
          and Space Administration and the United States Postal
          Inspection Service. This investigation was based on
          allegations that an individual gained unauthorized access to a
          nonpublic (Government access only) web server operating at
          the Department's Sandia National Laboratory (Sandia),
          Albuquerque, New Mexico, and defaced the web page
          replacing it with obscene statements. During this
economy

          investigation, search warrants were executed at two
          residences and a business, which led to an arrest and
          confession to computer intrusions at Sandia. The subject of
          this investigation also confessed to several computer
          intrusions at other Government and commercial entities and
          pleaded guilty in the State of Michigan Judicial Circuit Court
          to one count of Computers-Unauthorized Access. The
          subject is awaiting sentencing. (I01TC009)

          Duplicative Information Systems Need To Be Eliminated

          The OIG has completed several reviews on the Department's
          duplicative information systems. In an audit report from a
          previous reporting period concerning the Department's
          "Corporate and Stand Alone Information Systems
          Development" (DOE/IG-0485), the OIG concluded that the
          Department spent at least $38 million developing duplicative
          information systems. During the current reporting period, the
          OIG conducted an inspection which found that from FY 1998
          through April 2000, the Savannah River Operations Office
          authorized the expenditure of over $989,000 to develop,
          upgrade, and implement its human resource information
          system, essentially duplicating and weakening the
          Department's "Corporate Human Resource Information
          System" (CHRIS).

          The OIG provided management with recommendations that,
          if implemented, would strengthen the corporate initiative and
          end spending on duplicate systems. Management concurred
          with all of the OIG recommendations. (IG-0497)



                                                                    11
                          At Your Service

                  Corporate Human Resource Information System Not
                  Meeting Certain Requirements and Goals

                  In 1994, the Department determined that its "Legacy" Human
                  Resource Information System no longer met its business
                  needs. As a result, in 1996 it initiated action to replace this
                  system with CHRIS. The Department projected that
                  development of this system would cost approximately $8
                  million and would be fully implemented within 6 years. It
                  was also envisioned that the Department could expect a $9.6
                  million savings over that 6-year period after CHRIS was
                  implemented. By September 2000 the Department had spent
                  $11.6 million for CHRIS development.
     efficiency

                  The OIG conducted an audit and determined that CHRIS had
                  not satisfied all Federal and Department requirements and
                  had not met certain Department goals and objectives.
                  Specifically, several system development activities such as
                  the evaluation of selected software products and tracking of
                  development and implementation costs were inadequate or
                  had not been completed. Furthermore, Department goals to
                  reengineer certain human resource processes and eliminate
                  over 50 redundant systems had not been satisfied. In
                  addition, CHRIS had computer security weaknesses that
                  increased the risk of unauthorized access or malicious
                  damage to its data. CHRIS development and implementation
                  efforts had been adversely affected because the Department
                  did not adhere to project planning requirements and best
                  practices for system development projects. Consequently,
                  full implementation of CHRIS is not anticipated until FY
                  2005, 6 years after the original forecast, at a cost of about
                  $20.4 million or 155 percent greater than originally
                  estimated. Furthermore, it is unlikely that the Department
                  will achieve the project's original estimate of approximately
                  $9.6 million in savings.

                  The OIG proposed a series of recommendations to aid the
                  Department in satisfying its objective of deploying a fully
                  integrated human resource/payroll system. Department
                  management concurred with the OIG recommendations and
                  identified a number of corrective actions designed to address
                  the conditions in the report. (IG-0494)




12
                        At Your Service

                Department Internet Privacy Weaknesses
                As required by Section 646 of Public Law 106-554 (The
                Treasury and General Appropriations Act of 2001), the OIG
                conducted an audit to determine whether the Department’s
                method of collecting data from users of its publicly
                accessible web sites was consistent with Federal privacy
                laws and regulations.
                The audit found that the Department's data collection
effectiveness
                methods were not always consistent with Federal
                requirements. The OIG discovered that approximately 12
                percent of the 93 Department or contractor sponsored web
                sites reviewed, impermissibly employed a technology using
                "persistent cookies" (small files containing unique
                identifiers) to collect information about site visitors. In
                addition, approximately 30 percent of the web sites did not
                display conspicuously located, clearly written privacy
                notices explaining data collection techniques and use of
                visitor data.
                The OIG recommended that the Chief Information Officer
                take a series of actions to enhance internet privacy within the
                Department. Management agreed with the OIG
                recommendations and agreed to take immediate corrective
                action. (IG-0493)

                • Infrastructure
                For several years, the OIG has reported that the condition of
                the Department's infrastructure is inadequate and that, in
                fact, it is deteriorating at an alarming pace. Recent audits in
                certain areas key to the Department's core missions have led
                the OIG to conclude that the problem has become more
                severe, requiring prompt management attention.
                Underutilization of the Big Explosives Experimental
                Facility (BEEF) Results in Unnecessary Costs
                The NNSA manages the high-explosive firing facilities used
                by the Stockpile Stewardship Program. One of these
                facilities, BEEF, located at the Nevada Test Site, was built to
                perform large load, high explosive experiments that could not
                be conducted at any of the Department's other firing facilities.
                The BEEF facility is operated on a full-time basis by a staff
                of four.



                                                                           13
                                                    At Your Service

                                           The audit found that it was not necessary to operate this
                                           facility on a full-time basis. The OIG determined that the
                                           BEEF was operated on a full-time basis despite the fact that it
                                           was used to perform only a limited number of detonations,
                                           most of which could have been performed at other
                                           Department firing facilities. In addition, the OIG concluded
                                           that future use of the BEEF will likely decline because
                                           potential users of the facility are moving away from large
                                           load-type detonations. If the BEEF were used on an as-
                                           needed basis, the Department could save $500,000 annually
                                           and laboratory personnel could avoid unnecessary travel costs
                                           to the Nevada Test Site.

                                           The OIG recommended that the Nevada Operations Office
                                           (Nevada): (1) operate the BEEF on an as-needed basis; (2)
                                           require users to justify performing detonations at the BEEF
                                           that do not exceed local load limits; and (3) periodically
     The BEEF Facility, Nevada Test Site
                                           review the operations of the BEEF. Nevada agreed with the
                                           OIG recommendations. (WR-B-01-03)

                                           Lack of Effective Maintenance Program at Idaho National
                                           Engineering and Environmental Laboratory (INEEL)

                                           The OIG conducted an audit to determine whether the Idaho
                                           Operations Office (Idaho) maintained facilities in a safe and
                                           economical manner. The average age of the facilities at the
                                           INEEL is 27 years, and some of the facilities are more than
                                           50 years old.

                                           The audit found that Idaho did not have an effective
                                           maintenance program. Idaho did not ensure that its
                                           contractor, Bechtel BWXT Idaho, LLC (Bechtel), developed
                                           and implemented a comprehensive site maintenance plan.
                                           Without such a plan, Bechtel did not have sufficient
       Central Facilities Area, INEEL      oversight over its maintenance program. In addition, Idaho
                                           did not incorporate any performance goals or standards into
                                           the Bechtel contract to measure the success of maintenance




14
                  At Your Service

          operations. Further, the data on Bechtel's computerized
          maintenance management system was incomplete and
          unreliable. For example, the system could not produce a
          comprehensive list of maintenance needs or reliable actual
          cost data, and non-maintenance work was erroneously
          classified as maintenance.

          The OIG recommended that the Manager, Idaho, take several
          actions designed to improve the maintenance operations.
          Department management agreed with the OIG
          recommendations and identified specific corrective actions
          already in progress at the time of the audit. (WR-B-01-04)
economy
          • Property Controls and Asset Inventories

          For several years the OIG has been reporting, through the
          Federal Managers’ Financial Integrity Act (FMFIA) process,
          that the Department has extensive inventories of nuclear and
          non-nuclear materials that may no longer be necessary due to
          mission changes. The OIG has been concerned that funds
          spent to store, secure, and handle these materials could be put
          to better use and that the potential exists for safety and health
          concerns. The OIG has also reported significant deficiencies
          in controls over Government property. While the Department
          deserves credit for recent attention to this long-standing
          problem, recent OIG reviews continue to raise new concerns
          about the adequacy of controls over property.

          Proceeds from Enriched Uranium Asset Sale Are Less than
          Expected due to Ineffective Management of Contract Costs

          In October 1997, Fluor Fernald, Inc. (Fluor), the prime
          contractor at the Department’s Fernald Environmental
          Management Project (Fernald), accepted bids to sell 978
          metric tons of enriched uranium located at Fernald. The
          Department authorized Fluor to offset costs that were directly
          related to the sale and return the net proceeds to the U.S.
          Treasury (Treasury). Fluor estimated that the sale would
          realize net proceeds of $5 to $7 million for return to the
          Treasury.




                                                                      15
                          At Your Service

                  The OIG conducted an audit to determine whether the
                  Department returned proceeds from the sale of enriched
                  uranium to the Treasury. The review found that the
                  Department returned only $76,000 in proceeds to the
                  Treasury and that Fluor offset some of the sale proceeds with
                  costs that were not directly related to the sale. Avoidable
                  costs were also identified that were inappropriately incurred
                  by Fluor. The OIG determined that this occurred because:
                  (1) Fluor did not follow the Department's policy for offsetting
                  proceeds from the sale of assets; and (2) the Department
                  failed to provide appropriate oversight and contractor
                  performance incentives for this project. The OIG concluded
                  that had the process been more effectively managed, an
     efficiency
                  additional $3.6 million could have been returned to the
                  Treasury. Additionally, the audit also questioned the award
                  fee payments of $675,430 made to Fluor by the Department
                  despite the fact that Fluor spent four times more than
                  originally estimated on this project.

                  The OIG recommended a series of corrective actions to
                  ensure that the proceeds from future sales of assets are
                  handled in accordance with Department and Federal
                  guidance. Department management concurred with the
                  recommendations and agreed to initiate corrective actions.
                  However, Department management contended that $3.4
                  million of the questioned costs were allowable and that the
                  award fees paid to the contractor were appropriate.
                  (IG-0496)

                  Vehicle Fleet Operations Not Being Managed
                  Economically or Efficiently

                  In a 1994 report entitled "Audit of Light Vehicle Fleet
                  Management in the Department of Energy" (DOE/IG-0362),
                  the OIG reported that at various selected sites the Department
                  was not managing its light vehicle fleet operations in the most
                  economical and efficient manner. One site included in the
                  audit was the Richland Operations Office (Richland) and,
                  with respect to that site, the report concluded that 64 percent
                  of its vehicle fleet was utilized less than local mileage
                  standards. The OIG conducted a follow-up audit to
                  determine if the size of Richland's vehicle fleet was




16
                                               At Your Service

                                       appropriate. The audit found that the size of Richland's
                                       vehicle fleet was not appropriate. Since the 1994 report was
                                       issued, the number of site personnel at Richland has declined
                                       by 41 percent, but the number of light vehicles has declined
                                       by only 3 percent.

                                       The audit also determined that 85 percent of the vehicles
                                       were used less than the Department's mileage standards and
                                       27 percent were used less than the site's local mileage
                                       standards. It was determined that Richland had not
                                       established or implemented controls required by the
                                       Department's Property Management Regulation. The OIG
                                       estimated that Richland could potentially reduce the number
                                       of vehicles in its fleet by 559 and save approximately $1.7
                                       million annually.

                                       The OIG recommended that Richland measure vehicle use
                                       against Department standards or, if warranted, against local
                                       standards based on factors such as past performance and
                                       special operating conditions upon review and approval of the
                                       Fleet Manager. The OIG also recommended that underused
                                       vehicles be reassigned or returned to GSA. Department
                                       management concurred with the OIG's recommendations and
                                       estimated that the fleet could be reduced by approximately
                                       400 vehicles, a reduction that would save about $1.2 million
                                       annually. (WR-B-01-01)

                                       • Safety and Health

                                       Ensuring the safety and health of its workforce and the public
Did you know?
                                       is another of the Department's most difficult, long-term
The Department's laboratories          challenges. Safety and health issues encompass all activities
conduct research involving the         relating to the identification, testing, handling, labeling,
development of detection and           cleanup, storage, and/or disposal of radioactive and
response systems to improve            hazardous waste. Other activities relate to nuclear safety and
preparedness in the event of a         occupational and worker safety and health (e.g., nuclear
domestic attack involving biological
select agents.
                                       safety standards). Several OIG reviews completed during
                                       this reporting period addressed this challenge.
Source: March 22, 2000,
Congressional Statement of the         Weaknesses Identified in the Department’s Research
Director, Chemical & Biological        Activities Involving Controlled Biological Select Agents
Nonprofileration Program, NNSA

                                       Department laboratories conduct research involving
                                       biological select agents and select agent materials. The


                                                                                                  17
                             At Your Service

                     agents include approximately 40 viruses, bacteria, rickettsia,
                     fungi, and toxins whose transfer within the United States is
                     controlled. The OIG conducted an inspection of these
                     activities to determine whether the Department has
                     implemented appropriate environment, safety, and health
                     measures regarding the possession and use of the agents.

                     The OIG concluded that although there was no evidence that
                     current activities had adversely impacted safety and health,
                     there was insufficient organization, coordination and
     effectiveness
                     direction in the Department’s biological select agent
                     activities. Specifically, the Department’s activities lacked
                     sufficient Federal oversight, consistent policy, and
                     standardized implementing procedures, resulting in the
                     potential for greater risk to workers and possibly others from
                     exposure to biological select agents and select agent
                     materials. Additionally, it was observed that the
                     Department's laboratories did not always receive timely and
                     consistent information about Centers for Disease Control and
                     Prevention registration requirements.

                     The OIG recommended a series of actions to strengthen the
                     Department's activities involving controlled biological select
                     agents. Management concurred with the OIG
                     recommendations and agreed to take corrective action.
                     (IG-0492)
                     The Federal Energy Regulatory Commission's (FERC)
                     Information on Dam Safety Conditions Not Complete or
                     Timely

                     The OIG conducted an audit of FERC's dam safety program
                     to determine whether FERC's Division of Dam Safety and
                     Inspections was adequately conducting inspections, including
                     reporting results and tracking follow-up actions with respect
                     to construction, operation and maintenance of the non-Federal
                     hydroelectric dams under its jurisdiction.

                     The audit determined that although FERC inspections were
                     conducted in accordance with program goals, FERC had not
                     comprehensively reviewed over 70 independent consultant




18
                   At Your Service

          reports and had not prepared final reports on more than 300
          internal inspections, some of which had been performed in
          1997. As a result, FERC did not have complete, timely, and
          important information about the safety condition of some
          dams under its jurisdiction. Furthermore, inspection results
          were susceptible to misunderstanding because they had not
          been finalized and were not available for management review.

          Management concurred with the audit finding and
          recommendations and proposed development of a
          comprehensive plan to reduce or eliminate the backlog of
          consultant reviews and preparation of internal inspection
          reports. Management also agreed to modify its Data and
economy
          Management System database to improve monitoring of the
          report issuance process. (IG-0486)

          Improvement Necessary in Department Coordination of
          Containers Suitable for Shipping Fissile Material

          The OIG conducted an audit to determine the status of
          Department containers suitable for shipping its surplus fissile
          material.

          The audit concluded that the Department did not have a
          sufficient number of containers ready to ship the different
          types of its surplus fissile materials from various sites to the
          Savannah River Site. This occurred because the Department
          did not effectively integrate and manage its shipping container
          activities. Since FY1998, the Department has spent or
          committed to spend about $18.5 million related to its
          container activities, but still does not have a sufficient number
          of containers to ship surplus fissile materials to Savannah
          River.

          The OIG recommended that Management: (1) establish a
          more formal process within the Department for integrating
          coordination of Type B container activities; (2) develop and
          implement the Department's Packaging Management Plan; (3)
          direct all field elements to provide information on containers
          in inventory, new container needs, and containers under
          development to the Department’s centralized point of




                                                                       19
                                         At Your Service

                                 contact; and (4) prioritize and coordinate Type B container
                                 certification needs throughout the Department. Management
                                 concurred with the recommendations. (IG-0490)

                                 • Security

                                 One of the objectives of the Department’s National Nuclear
                                 Security business line is to ensure that the Department's "…
     Did you know?
                                 nuclear weapons, materials, facilities, and information assets
     The Department’s FY 2002    are secure through effective safeguards and security policy,
     budget request for the      implementation, and oversight." The Department spends over
     National Nuclear Security
                                 $1 billion per year for physical and personnel security.
     Administration is
     $6.8 billion.               Previous reviews by the OIG, Congress, and others have
                                 identified weaknesses in the Department's protection of
     Source: DOE News Release,   nuclear weapons-related information. Lapses in security were
     April 9, 2001               frequently cited during the debate leading to NNSA's
                                 creation. In 1999, the OIG designated Security as an
                                 emphasis area and initiated a number of reviews aimed at
                                 assisting the Department in focusing on areas of particular
                                 concern. The results of these reviews indicated that
                                 improvements in security operations are still needed.

                                 Security Service Restructuring Effort Results in Increased
                                 Costs

                                 In FY 1998, the ORO decided to restructure its security
                                 services in an effort to reduce cost, gain more administrative
                                 control, and capitalize on the efficiencies associated with a
                                 centralized approach to security. To achieve its objectives, in
                                 FY 2000 ORO awarded a 3-year base term contract for
                                 security services valued at $218 million to Wackenhut
                                 Services, Incorporated. Despite this restructuring effort,
                                 security costs increased from $78.4 million in FY 1999 to an
                                 estimated $92.1 million in FY 2000.

                                 The OIG conducted an audit to determine why security costs
                                 increased at the Oak Ridge Reservation after the restructure.
                                 The OIG found that ORO did not manage the restructuring
                                 effort in a way that would have achieved its goals.
                                 Specifically, ORO did not perform an analysis of security
                                 service staffing levels, determine the scope of work to be
                                 transferred to Wackenhut, or develop cost-reduction measures
                                 or incentives to ensure efficient contractor performance.
                                 Also, despite its commitment to achieve greater economies in



20
                      At Your Service

             security services, ORO did not consider cost as a ranking
             factor in its selection of the security services contractor. As a
             result, ORO incurred at least $7.5 million in avoidable
             security costs in FY 2000.

             The OIG recommended a series of corrective actions designed
             to improve ORO's management of the security services.
             Management concurred with the OIG recommendations and
             agreed to initiate corrective action. (IG-0487)

             The Department Needs to Take More Timely and Effective
             Actions to Improve Coordination of Its Nuclear Shipments
efficiency
             The NNSA's Office of Transportation Safeguards (OTS)
             maintains a liaison program with State, Tribal and local
             officials in the event of an incident or accident involving
             shipments of nuclear weapons, nuclear weapons components,
             or special nuclear materials. The OIG conducted an
             inspection to determine the effectiveness of selected OTS
             liaison activities.

             OTS officials have recently taken steps to improve liaison
             with State, Tribal, and local officials. The inspection found,
             however, that OTS needs to take more timely and effective
             actions to ensure the potential benefits from these
             improvements are fully achieved. For example, although OTS
             assigned liaison responsibilities to three individuals in July
             2000, representatives of three States from a selected sample of
             six States informed the OIG that they had no recent contact
             with OTS. Also, in October 2000, OTS established a program
             to augment its liaison activities by using OTS Federal Agent
             volunteers to educate law enforcement officials about OTS
             shipments, but the augmentation will not begin until October
             2001. In addition, OTS had conducted only one joint training
             exercise with State and local law enforcement agencies since
             1995.

             The OIG recommended that the Manager, Albuquerque
             Operations Office, take actions to improve coordination and
             communication between OTS and State representatives to
             assure all parties are aware of their respective roles and
             responsibilities in the event of an accident or incident




                                                                          21
                              At Your Service

                     involving an OTS shipment. Management agreed with the
                     OIG recommendations and agreed to initiate corrective
                     actions. (INS-O-01-02)

                     Review of the Department's Role in the Development and
                     Review of the Commerce Control List and the U.S.
                     Munitions List

                     The OIG conducted an inspection of the Department's role in
                     the development and review of the Commerce Control List
     effectiveness
                     and the U.S. Munitions List. The inspection, which was part
                     of an interagency review by Inspectors General of the
                     Departments of Commerce, Defense, Energy, and State, was
                     conducted in response to the requirement in Section 1402(b)
                     of the National Defense Authorization Act for FY 2000 for an
                     annual report by the Inspectors General on export control
                     policies and procedures.

                     The OIG inspection concluded that the Department is
                     providing appropriate support to the development and review
                     of the Nuclear Referral List, a subset of the Commerce
                     Control List. Additionally, the Department, which has only a
                     minor role in the development and review of the U.S.
                     Munitions List, is providing appropriate support for this list.
                     (INS-O-01-03)




22
                                                                               At Your Service

                                                                    Congressional Responses
Other Significant Accomplishments


                                                                    D           uring the reporting period, the OIG received 26
                                                                    requests for information from Congress, provided information
                                                                    in 36 instances to Congress, and briefed Committee staff on 8
                                                                    occasions. In addition, on March 15, 2001, the Inspector
                                                                    General testified before the House Committee on Government
                                                                    Reform, Subcommittee on National Security, Veterans'
                                                                    Affairs, and International Relations, about the management
                                                                    challenges described in this report.

                                                                    Campaign Activity Review Updates
                                                                    The OIG conducted two updates to its audit of "Campaigning
                                                                    Activities by Political Appointees," (DOE/IG-0473). The first
                                                                    update focused on the Department's progress in resolving
                                                                    areas of concern previously identified (internal controls
                                                                    relating to documentation and receivables) and addressed the
                                                                    political activities of key Department employees. The update
                                                                    determined that four of the five previously identified instances
                                                                    of insufficient documentation and controls concerning
                                                                    receivables had been resolved.

                                                                    It was also determined that during March through September
                                                                    2000, the former Secretary took 28 trips of which six involved
                                                                    mixed official/political travel. Only four of these trips,
                                                                    however, had been recognized by the Department as
                                                                    containing a political component. The OIG recommended a
                                                                    series of actions to improve the process of managing political
                                                                    travel activities and the Department agreed to implement these
                                                                    recommendations. (CR-L-01-01)

                                                                    Based on the OIG review of the trips taken during the second
                                                                    and final update period and the corrective actions taken by
                                                                    management, the OIG determined that all previously
                                                                    identified issues had been resolved by the Department. In
                                                                    addition, the OIG did not identify any instances of
                                                                    campaigning activities that were not in accordance with
                                                                    applicable laws and regulations. (CR-L-01-05)




                                    Additional information on the OIG, including the full text of its public reports and Department
                                    management’s comments, can be found on the OIG website – www.ig.doe.gov.                          23
                        At Your Service

               Financial Management
               Report on the Department of Energy's Consolidated
               Financial Statements

               For the second year in a row, the Department received an
               unqualified (clean) opinion on its FY 2000 consolidated
               financial statements. The OIG conducted the audit pursuant
               to the Government Management Reform Act of 1994 (Act).
               The objective of the Act is to improve financial practices of
               Federal agencies. The preparation of the statements is the
               responsibility of the Department, and the OIG is responsible
               for the audit.
     economy

               This year, the OIG contracted with the accounting firm of
               KPMG LLP to conduct the audit. The accounting firm
               concluded that the financial statements present fairly, in all
               material respects, the Department's financial position as of
               September 30, 2000, and its net costs, changes in net position,
               budgetary resources, reconciliation of net costs to budgetary
               obligations and custodial activities for the year then ended.
               The OIG agreed with this opinion.

               As part of this determination, the auditors considered the
               Department's internal control over financial reporting and
               tested the Department's compliance with certain provisions of
               applicable laws and regulations that could have a direct and
               material effect on the consolidated financial statements.

               Three reportable weaknesses in the Department's system of
               internal controls were identified. These related to: (1)
               Performance Measurement Reporting; (2) Financial
               Management at the Western Area Power Administration
               (Western); and (3) Unclassified Information System Security.
               Each of these items represents a repeat finding from the prior
               year's audit report.

               • Although the Department made improvements in
                  reporting the results of its performance activities, the
                  quality of certain measures was questionable.
                  Specifically, performance goals, in many cases, were not
                  output or outcome oriented; some were not meaningful or




24
                      At Your Service

                 relevant or stated in objective or quantifiable terms.
                 Additionally, costs were not clearly related to outcomes.

             • For most of FY 2000, Western's financial system did not
                 generate timely, useful reports containing complete and
                 accurate financial information. To compensate for the
                 increased control risk, an intensive effort was required to
                 ensure reliability of Western's financial information and
                 account balances. As of December 2000, Western had
                 made progress. This improvement allowed KPMG to
                 consider this a reportable condition instead of a material
                 internal control weakness as was reported last year by the
                 OIG.
efficiency

             • In the area of Unclassified Information System Security,
                 the Department has certain network vulnerabilities and
                 general access control weaknesses. Full implementation
                 of the Cyber Security Program throughout the Department
                 should help ensure that Federal information standards are
                 met, and that information systems are adequately
                 protected against unauthorized access.
             Significant progress was made in one area relating to the
             environmental liability estimate. The Department utilizes a
             parametric model to estimate the majority of the $26 billion
             cleanup cost for active and surplus facilities. Most of the
             active facilities cost is associated with the cleanup of facilities
             in the NNSA. This year, the Department improved the quality
             of input data for this estimate in response to a
             recommendation in the OIG's FY 1999 consolidated financial
             statements report. Accordingly, this issue is no longer a
             reportable condition.

             To ensure the quality of the audit, the OIG approved the
             scope of KPMG's assignment and monitored their work. The
             OIG also reviewed the audit report and related working
             papers to ensure compliance with applicable auditing
             standards.

             The OIG transmittal memorandum and the KPMG audit
             report are included in the Department's Fiscal Year 2000
             Performance and Accountability Report, DOE/CR-0071.
             (IG-FS-01-01)




                                                                           25
                                             At Your Service

                                     Qui Tams
     Did you know?

     The False Claims Act (Act)
                                     Since 1996, the OIG has been instrumental in working with
     prohibits any person from       the Department of Justice (DOJ) on Qui Tam cases where it
     “knowingly” presenting “a       has been alleged that a Department contractor or grantee
     false or fraudulent claim for   submitted false claims. The OIG is currently working with
     payment or approval” to the
     Federal Government. The
                                     the DOJ on 27 Qui Tam lawsuits involving alleged fraud
     Act authorizes individual       against the Government in the amount of approximately
     citizens to bring private       $260 million.
     suits, referred to as Qui
     Tam actions, to enforce the
     Act on behalf of the
                                     Previous Civil Settlement Results in Payment of
     Government.                     $6.3 Million to the Department

     Source: False Claims Act        As previously reported, a task force investigation involving a
                                     Government architect and engineering contractor determined
                                     that the contractor improperly billed the Federal Government
                                     for sale/lease back expenses. A civil settlement agreement
                                     was reached in March 2000.

                                     During this reporting period, the contractor paid the Federal
                                     Government $35 million in accordance with the terms of the
                                     agreement. The Department directly received $6.3 million.
                                     The remaining funds were divided among the Qui Tam
                                     Relator, the DOJ, the U.S. Treasury, and other Federal
                                     agencies. (I97LL022)

                                     Administrative Safeguards
                                     Contractor Reimburses the Department for Employee's
                                     False Travel Claims

                                     An OIG investigation substantiated an allegation that a
                                     Department contractor employee at the Lawrence Livermore
                                     National Laboratory (LLNL) claimed lodging costs to which
                                     he was not entitled while he was on an extended temporary
                                     duty assignment. Subsequently, the contractor employee
                                     voluntarily terminated his employment with LLNL. LLNL
                                     acknowledged that it improperly allowed the expenses, and it
                                     reimbursed the Department $37,766 for the employee's false
                                     travel claims. Additionally, the employee's supervisor was
                                     verbally admonished for approving the unallowable
                                     expenses. (I00LL003)




26
                        At Your Service

                Contractor Employees Falsify Department Letterhead to
                Obtain Personal Firearms

                An OIG investigation determined that contractor employees
                at the Department's Strategic Petroleum Reserve improperly
                used their positions to facilitate the purchase of at least 16
                personal firearms under a firearms manufacturer's special
                pricing program, and used Department ammunition for the
                firearms. The investigation revealed that contractor
                employees, including management officials, used Department
effectiveness
                and contractor letterhead to convey false information to a
                firearms manufacturer to induce the sale of the firearms.

                The case was coordinated with an Assistant U.S. Attorney
                (AUSA) of the Eastern District of Louisiana. The AUSA
                declined prosecution in favor of administrative remedies.

                The OIG issued an Administrative Report to Management
                (ARM) reporting the results of the investigation and making
                a number of recommendations. Management informed the
                OIG that: (1) administrative action was taken against several
                contractor employees; (2) the contractor will reimburse
                unallowable costs claimed under the contract (for example,
                contractor’s time claimed against the contract for processing
                the firearms requests); (3) policies were implemented
                regarding the use of Department letterhead; and (4) the
                actions of the contractor will be factored into the next award
                fee determination. (I99OR005)

                Employee Misused Government Credit Card and Submitted
                False Travel Vouchers

                An OIG investigation substantiated allegations that a
                Department employee at the Western Area Power
                Administration (WAPA) misused a Government sponsored
                credit card to obtain $1,365 in unauthorized cash advances
                and submitted two false travel claims totaling $2,148.

                This matter was referred to the U.S. Attorney's Office for the
                District of Montana, who deferred criminal prosecution in
                favor of administrative action. The OIG issued an ARM




                                                                          27
                       At Your Service

               recommending that appropriate administrative action be
               taken against the employee. The subject resigned in
               anticipation of WAPA's removal action. The subject has
               reimbursed the Department for the unauthorized credit card
               transactions and has agreed to pay restitution for the
               unauthorized travel claims. The total anticipated recovery
               amount is $3,513. (I00DN008)

               Subcontractors Debarred for Supplying the Government
               Substandard Coal

               In a previous Semiannual Report, the OIG reported the
               results of an OIG task force investigation into the alleged
               shipment of substandard coal and falsification of coal testing
     economy

               results. The substandard coal was provided to the
               Department's Savannah River Site, the Fernald
               Environmental Management Project, and numerous
               Department of Defense facilities. After a U.S. Attorney for
               the Southern District of Kentucky accepted the case for
               criminal prosecution, a Federal Grand Jury returned a 43-
               count indictment for false statements, false claims,
               conspiracy, and major fraud against the Government.
               Following the indictment, both subcontractors and their
               owners were suspended from Government contracting.
               Under the terms of a plea agreement, both owners separately
               pleaded guilty to false statements, and they were each
               sentenced to 2 years probation.

               During this reporting period, both subcontractor companies
               and their owners were debarred from Government
               contracting for a period of 3 years. (I94SR018)

               Former Subcontractor Employee Placed in Pre-Trial
               Diversion Program

               An OIG investigation determined that a former subcontractor
               employee at the Department’s Strategic Petroleum Reserve
               falsified time and attendance records resulting in the payment
               of $6,191 in unearned income. The U.S. Attorney's Office
               for the Southern District of Louisiana accepted the case for
               criminal prosecution for violations of Title 18, U.S.C.,
               Section 641 (Theft of Government Property). The former
               employee reimbursed the Government the full amount of




28
                     At Your Service

             $6,191 and was placed in the Pre-Trial Diversion Program
             for a period of 1 year. (I99OR007)

             Intelligence Activities
             The OIG issued two quarterly intelligence reports pursuant to
             Executive Order 12863, "President's Foreign Intelligence
             Advisory Board." The Order requires the Inspectors General
             of the Intelligence Community to report to the Intelligence
             Oversight Board concerning intelligence activities that
             Inspectors General have reason to believe may be unlawful or
             contrary to Executive Order or Presidential Directive.
efficiency
             Legislative and Regulatory Review

             The OIG coordinated and reviewed 21 legislative and
             regulatory items, as required by the Inspector General Act of
             1978 (Act). The Act requires the OIG to review existing and
             proposed legislation and regulations relating to Department
             programs and operations and to comment on the impact which
             they may have on economical and efficient operations of the
             Department.

             Management Referral System
             The OIG operates an extensive Management Referral System.
             Under this system, selected matters received through the OIG
             Hotline or other sources are referred to the appropriate
             Department manager or other Government agency for review
             and appropriate action. Complaints referred may include such
             matters as time and attendance abuse, misuse of Government
             vehicles and equipment, violations of established policy, and
             standards of conduct violations.

             The OIG referred 228 complaints to Department management
             and other Government agencies during this reporting period,
             and requested Department management to respond concerning
             the actions taken on 110 of these complaints.




                                                                      29
                             At Your Service

                     Challenges Facing the OIG

                     The OIG continued to direct its resources toward sensitive,
                     complex, quick-turnaround tasks requested by the Secretary
                     and Congress. For example, at the request of the former
                     Secretary and a member of Congress, the OIG initiated a
                     review of the circumstances surrounding a draft report on
                     Yucca Mountain. This multidisciplinary effort has consumed
                     a considerable amount of resources. In addition, based on
                     Secretarial/congressional requests, the OIG conducted a
     effectiveness
                     review to determine whether there was profiling based on
                     national origin in certain aspects of Department security
                     clearance processes and in the handling of security incidents.
                     The OIG expects that requests for such labor-intensive, quick-
                     turnaround tasks will continue.

                     The OIG looks forward to working with the Secretary, other
                     Department officials and the Congress to continue improving
                     the economy, efficiency, and effectiveness of agency
                     programs and operations. The OIG is committed to providing
                     the highest level of service possible.

                     The OIG also will continue to devote considerable time and
                     resources to conducting reviews that assist the Department in
                     meeting its management challenges and that contain value-
                     added recommendations to foster better agency stewardship.




30
                                                              At Your Service

                                       AUDIT REPORTS ISSUED IN THE FIRST HALF
Reports Issued
                                                 OF FISCAL YEAR 2001

                    Report                                                            Date of                       Questioned
                    Number                               Title                         Issue        Savings           Costs

                 CR-FS-01-01       Management Letter on the Audit of the             03-29-01
                                   Department of Energy's Consolidated
                                   Financial Statements for Fiscal Year 2000
                 CR-L-01-01        Update to the Audit of Campaigning                10-13-00
                                   Activities by Political Appointees
                 CR-L-01-02        The Department of Energy's Bank Deposit 11-09-00
                                   Financial Assistance Program
                 CR-L-01-03        Survey of the Department of Energy's    11-22-00
                                   Health-Related Research and Development
                                   Program
                 CR-L-01-04        The Department of Energy's Small Business 12-07-00
                                   Program
                 CR-L-01-05        Final Update to the Audit of Campaigning          12-20-00
                                   Activities by Political Appointees
                 CR-L-01-06        Federal Managers' Financial Integrity Act         02-08-01
                                   Audit Report
                 CR-L-01-07        Department of Energy's Advisory Panels            02-08-01

                 ER-C-01-01        Interim Audit of Thomas Jefferson National 12-07-00
                                   Accelerator Facility Costs Incurred Under
                                   Contract DE-AC05-84ER40150 Fiscal
                                   Years 1994 Through 1999

                 ER-L-01-01        Follow-up Audit of Overtime at the                10-10-00
                                   Savannah River Site

                 ER-L-01-02        Survey of Argonne National                        10-26-00
                                   Laboratory’s Advanced Photon
                                   Source
                 ER-L-01-03        Distribution of Indirect Costs at the     11-21-00
                                   Savannah River Site
                 ER-L-01-04        Survey of Bates Linear Accelerator Center 11-30-00
                                   Funding




                  Additional information on the OIG, including the full text of its public reports and Department
                  management’s comments, can be found on the OIG website – www.ig.doe.gov.                               31
                                                     At Your Service
Reports Issued
                 ER-L-01-05    Survey of the Neutrinos at the Main         01-23-01
                               Injector Project and Main Injector Neutrino
                               Oscillation Search Experiment
                 ER-L-01-06    Survey of Integrated Safety Management at 01-31-01
                               the Oak Ridge Operations Office

                 WR-B-01-01    Richland Operations Office Fleet            02-02-01   $8,500,000
                               Management

                 WR-B-01-02    Prediction and Mapping Capabilities for     03-07-01   $7,800,000
                               Atmospheric Releases of Hazardous
                               Materials
                 WR-B-01-03    Utilization of the Big Explosives           03-13-01   $2,500,000
                               Experimental Facility

                 WR-B-01-04    Facility Maintenance at the Idaho National 03-22-01
                               Engineering and Environmental Laboratory

                 WR-L-01-01    Occupational Medicine Program               11-02-00


                 WR-L-01-02    Environmental Remediation at the Energy 12-19-00
                               Technology Engineering Center

                 WR-L-01-03    Office of Transportation Safeguards         02-14-01
                               Resources for Future Workload

                 WR-V-01-01    Assessment of the Internal Audit Function   10-17-00
                               at the Rocky Flats Environmental
                               Technology Site
                 WR-V-01-02    Assessment of Changes to the Internal       12-01-00
                               Control Structure and Their Impact on the
                               Allowability of Costs Claimed by and
                               Reimbursed to the Midwest Research
                               Institute Under Department of Energy
                               Contract No. DE-AC36-83CH10093
                 IG-FS-01-01   Audit of the Department of Energy's         02-16-01
                               Consolidated Financial Statements for
                               Fiscal Year 2000
                 IG-0486       Federal Energy Regulatory Commission's      10-27-00
                               Dam Safety Program

                 IG-0487       The Restructure of Security Services by the 10-31-00   $37,500,000
                               Oak Ridge Operations Office

                 IG-0489       Americium/Curium Vitrification Project at 11-28-00
                               the Savannah River Site




32
                                                  At Your Service
Reports Issued
                 IG-0490   Containers Suitable for Shipping Fissile      11-28-00 $18,500,000
                           Material

                 IG-0491   Management Challenges at the Department 11-28-00
                           of Energy

                 IG-0493   Internet Privacy                              02-09-01


                 IG-0494   The U.S. Department of Energy's               02-13-01
                           Corporate Human Resource Information
                           System
                 IG-0495   The Need for the Atlas Pulsed Power           02-12-01
                           Experimental Facility

                 IG–0496   Sales of Enriched Uranium at the Fernald 02-27-01                     $3,600,000
                           Environmental Management Project

                 IG-0498   Bechtel Jacobs Company LLC's                  03-21-01 $220,500,000
                           Management and Integration Contract at
                           Oak Ridge


                            The OIG’s Audit Followup Action:

                            • OIG recommended corrective actions agreed to by the
                              Department are tracked by the Department until
                              complete.

                            • The OIG follows up on all Department nonconcurrences
                              with OIG report recommendations.

                            • When the Department and the OIG disagree, the
                              Department must prepare a Management Decision
                              describing its position and any alternative action.

                            • The Department’s Chief Financial Officer reviews the
                              Management Decisions and may convene a meeting of the
                              Departmental Internal Control and Audit Review Council
                              (DICARC) to achieve mutually agreeable resolution.




                                                                                                        33
                                                             At Your Service
Reports Issued
                                    INSPECTION REPORTS ISSUED IN THE FIRST HALF
                                                OF FISCAL YEAR 2001*

                     Report                                                         Date of              Questioned
                     Number                               Title                      Issue     Savings     Costs

                 INS-L-01-01         Inspection Report on the Processing of        10-18-00
                                     Unsolicited Proposals by the Office of Energy
                                     Efficiency and Renewable Energy

                 INS-L-01-02         Security Incident at Technical Area 18, Los   11-06-00
                                     Alamos National Laboratory

                 INS-L-01-03         Inspection of Property Control Issues at      12-05-00
                                     Bonneville Power Administration

                 INS-O-01-01         Inspection of Lawrence Livermore National     02-20-01
                                     Laboratory Credit Card Usage and Property
                                     Management Concerns

                 INS-O-01-02         Inspection of Selected Coordination Activities 03-13-01
                                     by the Department of Energy's Office of
                                     Transportation Safeguards

                 INS-O-01-03         Inspection of the Department of Energy's Role 03-21-01
                                     in the Commerce Control List and the U.S.
                                     Munitions List

                 IG-0488             Inspection of Selected Aspects of the      11-20-00
                                     Department of Energy's Classified Document
                                     Transmittal Process

                 IG-0492             Inspection of Department of Energy Activities 02-02-01
                                     Involving Biological Select Agents

                 IG-0497             Inspection of Concerns Relating to the        03-13-01
                                     Management of the Savannah River
                                     Operations Office Learn/Power Information
                                     System
                 * Does not include non-public reports.




34
                                                             At Your Service

                                                AUDIT REPORT STATISTICS
Statistics
                                                  October 1, 2000, to March 31, 2001

             The following table shows the total number of operational and financial audit reports, and the total
             dollar value of the recommendations.

                                                     Total          One-Time            Recurring                 Total
                                                    Number           Savings             Savings                 Savings


             Those issued before the reporting
             period for which no management
             decision has been made:*
                                                        13        $166,827,042         $269,730,516        $436,557,558
             Those issued during the reporting
             period:                                    34         $77,460,000         $221,440,000        $298,900,000

             Those for which a management
             decision was made during the
             reporting period:*                         12        $146,189,639         $329,447,396        $475,637,035

                Agreed to by management:                            $7,661,247          $4,800,000          $12,461,247
                Not agreed to by management:
                                                                   $17,599,043          $2,000,000          $19,599,043

             Those for which a management
             decision is not required:                  23              $0                   $0                    $0

             Those for which no management
             decision had been made at the end
             of the reporting period:*
                                                        12        $219,026,752         $484,370,516        $703,397,268




             *The figures for dollar items include sums for which management decisions on the savings were deferred.




               Additional information on the OIG, including the full text of its public reports and Department
               management’s comments, can be found on the OIG website – www.ig.doe.gov.                                 35
                                                         At Your Service
Statistics
                                             AUDIT REPORT STATISTICS
                                                 October 1, 2000, to March 31, 2001

             The following table shows the total number of contract audit reports, and the total dollar value of
             questioned costs and unsupported costs.


                                                                 Total          Questioned        Unsupported
                                                                Number            Costs              Costs

             Those issued before the reporting period for
             which no management decision has been
             made:                                                  4            $7,651,747          $84,241

             Those issued during the reporting period:              1                 $0                $0

             Those for which a management decision was
             made during the reporting period:                      0                 $0                $0

                Value of disallowed costs:                                            $0                $0
                Value of costs not disallowed:                                        $0                $0

             Those for which a management decision is not
             required:                                              1                 $0                $0

             Those for which no management decision had
             been made at the end of the reporting period:          4            $7,651,747          $84,241




36
                                                   At Your Service

                          REPORTS LACKING MANAGEMENT DECISION
Statistics

             The following are audit reports issued before the beginning of the reporting period for
             which no management decisions had been made by the end of the reporting period, the
             reasons management decisions had not been made, and the estimated dates (where
             available) for achieving management decisions. These audit reports are over 6 months old
             without a management decision. The Department has a system in place which tracks audit
             reports and management decisions. Its purpose is to ensure that recommendations and
             corrective actions indicated by audit agencies and agreed to by management are addressed
             and effected as efficiently and expeditiously as possible.

             The Contracting Officers have not yet made decisions on the following contract audit
             reports and the reasons for not doing so included the delaying of settlement of final costs
             questioned in audits pending completion of review of work papers and voluminous
             additional records, additional work by the Defense Contract Audit Agency, and completion
             of certain legal and contractual investigations.

             ER-CC-93-05           Report Based on the Application of Agreed-Upon Procedures With
                                   Respect To Temporary Living Allowance Costs Claimed Under
                                   Contract No. DE-AC09-8SR18035, October 1, 1987, to September
                                   20, 1990, Bechtel National Inc., San Francisco, California, and
                                   Bechtel Savannah River, Inc., North Augusta, South Carolina,
                                   May 3, 1993
                                   (Estimated date of closure: September 30, 2001)

             WR-C-95-01            Independent Final Audit of Contract No. DE-AC34-RIRF00025,
                                   July 26, 1990, to March 31, 1993, Wackenhut Services, Inc., Golden,
                                   Colorado, March 14, 1999
                                   (Estimated date of closure: June 30, 2001)

             ER-C-97-01            Report on Interim Audit of Costs Incurred Under Contract No. DE-
                                   AC24-92OR219721 from October 1, 1994, to September 30, 1995,
                                   Fernald Environmental Restoration Management Corporation,
                                   Fernald, Ohio, December 20, 1996
                                   (Estimated date of closure: September 30, 2001)

             ER-C-00-03            Interim Audit of Thomas Jefferson National Accelerator Facility
                                   Costs Incurred Under Contract DE-AC05-84ER40150 Fiscal Years
                                   1994 Through 1999
                                   (Estimated date of closure: December 31, 2001)




                                                                                                    37
                                                  At Your Service
Statistics
             Additional time was necessary to develop management decisions for the following reports.
             Further explanations for the delays follow each audit report.

             IG-0411              Contractor Incentive Programs at the Rocky Flats Environmental
                                  Technology Site, August 13, 1997. The finalization of the
                                  management decision on this report is pending the resolution of one
                                  outstanding legal issue. This should occur by December 31, 2001.

             CR-B-99-02           Management of Unneeded Materials and Chemicals, September 30,
                                  1999. This item, while high on the list of Management Efficiency
                                  Initiatives last year, was not resolved at the time that the previous
                                  Administration left office. Plans are to raise the issue for resolution
                                  as soon as the new Deputy Secretary is in place. A management
                                  decision is expected before December 30, 2001.

             IG-0457              Follow-up Audit of Program Administration by the Office of
                                  Science, January 24, 2000. The Department is awaiting the
                                  Committee on Science, Engineering, and Public Policy's study,
                                  GPRA 2000, to be conducted by the end of this year, before it
                                  finalizes its management decision. It should be made by December
                                  30, 2001.

             IG-0462              National Low-Level Waste Management Programs, February 24,
                                  2000. The finalization of the management decision on this report is
                                  awaiting resolution of one outstanding issue. It is estimated that this
                                  will occur by June 30, 2001.

             IG-0470              Follow-up Audit of Health Benefit Costs at the Department's
                                  Management and Operating Contractors, May 11, 2000. Finalization
                                  of the management decision is pending resolution of the outstanding
                                  issue. It should be made by July 30, 2001.

             IG-0483              Implementation of Presidential Decision Directive 63, Critical
                                  Infrastructure Protection, September 22, 2000. The finalization of
                                  the management decision on this report is awaiting review and
                                  mandatory concurrence by several organizations. It is expected that
                                  this will occur by April 27, 2001.

             WR-B-00-07           Vehicle Use at Lawrence Livermore National Laboratory, September
                                  20, 2000. The finalization of the management decision on this report
                                  is pending conclusion of the selection of the best available
                                  measurement for Lawrence Livermore National Laboratory vehicle
                                  usage. It is estimated that this will occur by September 30, 2001.




38
                                                                       At Your Service
Statistics
                                                        INVESTIGATIVE STATISTICS
                                                          October 1, 2000, to March 31, 2001


             Investigations open at the start of this reporting period ............................................................. 199
             Investigations opened during this reporting period .................................................................... 49
             Investigations closed during this reporting period ..................................................................... 49
             Investigations open at the end of this reporting period .............................................................. 199
             Qui Tam investigations opened ..................................................................................................         6
                     Total open Qui Tam investigations as of 3/31/01 ......................................................... 27
             Multi-agency task force investigations opened .......................................................................... 10
                     Total open multi-agency task force investigations as of 3/31/01 .................................. 65
             Investigative reports to prosecutors and Department management ............................................                              8
             Recommendations to management for positive change and other actions ................................. 19
             Administrative discipline and other management actions .......................................................... 14
             Suspensions/Debarments ............................................................................................................      5
             Investigations referred for prosecution.......................................................................................           9
                     Accepted* .....................................................................................................................  4
                     Indictments .................................................................................................................... 1
                     Criminal convictions .....................................................................................................       2
                     Pretrial Diversions ........................................................................................................     1
                     Civil actions .................................................................................................................  1
             Fines, settlements, recoveries** ...............................................................................            $817,725.37

             *Some of the investigations accepted during the 6-month period were referred for
                    prosecution during a previous reporting period.
             **Some of the money collected was the result of task force investigations.




                                                                                                                                                  39
                                                                      At Your Service

                                                          INSPECTION STATISTICS
Statistics
                                                         October 1, 2000, to March 31, 2001



             Inspections open at the start of this reporting period .....................................................                      43
             Inspections opened during this reporting period ............................................................                      15
             Inspections closed during this reporting period .............................................................                     13
             Inspections open at the end of this reporting period ......................................................                       45
             Reports issued (includes non-public reports) .................................................................                    15
             Inspection recommendations..........................................................................................              52
                    Accepted this reporting period ..........................................................................                  30
                    Implemented this reporting period.....................................................................                     22
             Qui Tams processed .......................................................................................................         5
             Complaints referred to Department management/others ...............................................                              228
                  Referrals to Department management requesting a response for
                  OIG evaluations ....................................................................................................        110




                                                                Hotline Statistics

             Hotline calls, emails, letters, and other complaints........................................................                     520
             Hotline calls, emails, letters, and other complaints predicated ......................................                           229
             Hotline referrals received via the General Accounting Office
              and predicated ..............................................................................................................     3
             Unresolved Hotline predications from previous reporting periods ................................                                   2
                    Total Hotline predications ..................................................................................             234
             Hotline predications transferred to the Management Referral System .........................                                     151
             Hotline predications closed based upon preliminary OIG activity ................................                                  64
             Hotline predications pending disposition .......................................................................                  19
                    Total predications processed ..............................................................................               234




40
                             At Your Service

                           FEEDBACK SHEET




The contents of the April 2001 Semiannual Report to Congress comply with the
requirements of the Inspector General Act of 1978, as amended. However, there
may be additional data which could be included or changes in format which would
be useful to recipients of the Report. If you have suggestions for making the
Report more responsive to your needs, please complete this feedback sheet and
return it to:

                              Department of Energy
                              Office of Inspector General (IG-121)
                              Washington, D.C. 20585

                              ATTN: Wilma Slaughter



Your name:

Your daytime telephone number:

Your suggestion for improvement: (please attach additional sheets if needed)




If you would like to discuss your suggestion with a staff member of the Office of
Inspector General or would like more information, please call Wilma Slaughter at
(202) 586-1924 or contact her on the Internet at wilmatine.slaughter@hq.doe.gov.




                                                                               41
                           U.S. Department of
                                 Energy
                                Office of
                           Inspector General


                             HOTLINE

Tear along dotted line    Protect Your Investments
                         Be a Good Corporate Citizen

                         Report Fraud, Waste, or
                                 Abuse
                          By a DOE Employee,
                               Contractor
                                   or
                            Grant Recipient
                           Call 1-800-541-1625
                            Or 202-586-4073
                          Additional information on the OIG
                           can be found by visiting the OIG
                             website – www.ig.doe.gov.
